<html>
<title> - [H.A.S.C. No. 111-43] EFFECTIVE COUNTERINSURGENCY:
THE FUTURE OF THE U.S.-PAKISTAN MILITARY PARTNERSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 111-43]

                      EFFECTIVE COUNTERINSURGENCY:

                    THE FUTURE OF THE U.S.-PAKISTAN

                          MILITARY PARTNERSHIP

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 23, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
52-666                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 23, 2009, Effective Counterinsurgency: The Future 
  of the U.S.-Pakistan Military Partnership......................     1

Appendix:

Thursday, April 23, 2009.........................................    35
                              ----------                              

                        THURSDAY, APRIL 23, 2009
 EFFECTIVE COUNTERINSURGENCY: THE FUTURE OF THE U.S.-PAKISTAN MILITARY 
                              PARTNERSHIP
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Barno, Lt. Gen. David W., USA (Ret.), Director, Near East South 
  Asia Center for Strategic Studies, National Defense University.     4
Kilcullen, Dr. David, Partner, Crumpton Group, LLC, Senior 
  Fellow, EastWest Institute, Member of the Advisory Board, 
  Center for a New American Security.............................     7
Nawaz, Shuja, Director, South Asian Center, The Atlantic Council 
  of the United States...........................................     8

                                APPENDIX

Prepared Statements:

    Barno, Lt. Gen. David W......................................    39
    Kilcullen, Dr. David.........................................    49
    Nawaz, Shuja.................................................    54

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 EFFECTIVE COUNTERINSURGENCY: THE FUTURE OF THE U.S.-PAKISTAN MILITARY 
                              PARTNERSHIP

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 23, 2009.
    The committee met, pursuant to call, at 2:28 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon. Today, we have with us an 
outstanding panel of experts to discuss the future of the 
United States-Pakistan military partnership.
    I am pleased to welcome our friend, General David Barno, 
Director of the Near East South Asia Center for Strategic 
Studies, a National Defense University; Dr. David Kilcullen, 
former advisor to General Petraeus, and author of the recent 
book, ``The Accidental Guerrilla''; Mr. Shuja Nawaz, Director 
of the South Asia Center at The Atlantic Council. And we 
certainly welcome you.
    I might mention at this outset--I said that the next 
hearing we would begin, and have our questioners come from the 
bottom row, backwards, using the same general format. However, 
I will take advantage of asking a question or two, as Mr. 
McHugh will, and then we go to the bottom row, and come back.
    Our hearing could not be more timely. This Congress, this 
Administration, are committed to developing a mutually 
beneficial long-term and consistent relationship with the 
country of Pakistan.
    Pakistan may well pose the most complex security challenge 
facing us. The terrorist havens continue to thrive in 
Pakistan's border area, providing refuge to Al Qaeda, and 
negatively impacting stability in Afghanistan. Terrorist and 
insurgent forces on Pakistan's territory also contribute to 
Pakistan's own internal instability, which is further 
compounded by the country's economic crisis, and civilian 
government, with limited powers.
    At the same time, Pakistan continues to possess enough 
fissile material for about 55 to 90 nuclear weapons, and 
tensions with its nuclear-armed neighbor, India, have 
increased.
    So how do we strengthen the U.S.-Pakistan military 
partnership to better address these challenges? In my opinion, 
the Administration's recent Afghanistan-Pakistan strategy is a 
step in the right direction. However, the strategy alone does 
not guarantee success. Implementation of the strategy, 
benchmarks to measure progress, and accountability are all 
critical, as well as close cooperation with our Pakistani 
partners in all of these areas.
    Accountability is particularly important, given the 
significant resources the Administration is requesting from 
Congress and the American people for efforts in Pakistan. 
Following 9-11, Pakistan has received almost $12 billion from 
our country, including about $6.4 billion in the Department of 
Defense Coalition Support Fund reimbursements and $2.3 billion 
in security-related assistance.
    The recent supplemental budget request for the fiscal year 
2009 also includes $400 million for a new Pakistani 
counterinsurgency capabilities fund.
    Does the current U.S. approach regarding reimbursements and 
security assistance for Pakistan make sense? Or does need to 
change in a way to better achieve its objectives and ensure a 
measurable return on investment? And do we have the right 
balance between security assistance and assistance for economic 
development?
    You should know there is legislation pending in Congress 
that seeks to increase U.S.-Pakistani cooperation on security 
matters by specifically conditioning U.S. assistance for 
Pakistan on such cooperation.
    I look forward to your thoughts, your recommendations.
    Now, I turn to my good friend, the ranking member, John 
McHugh, for comments he may wish to make.
    And then we will hear our panel, and then go to questions. 
And as I said before, we will begin our questions after Mr. 
McHugh and I ask our questions, with the bottom row, using the 
same procedure as we have from the top row, in recent days.
    Mr. McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman. Let me join 
you in welcoming--a belated welcome, I might add, to our 
distinguished panelists. And knowing some of you personally, 
and all of you professionally, and admired your work, we are 
deeply appreciative of your effort to be here, and your efforts 
to stay here. We all apologize for the timing involved. But I 
know you understand we really had no control over that.
    As the chairman correctly noted, Washington--in fact, much 
of the United States--has been, shall we say, abuzz over this 
Nation's Pakistan policies. Certainly, the President helped to 
increase the discussion on this very urgent issue when he 
introduced a strategy for both Afghanistan and Pakistan just a 
short time ago.
    And a fundamental element of the plan is its call for 
expanding our partnership with the Pakistani military, through 
building counterinsurgency capabilities, and promoting closer 
cooperation across the Afghan-Pak border.
    Right after the legislation was dropped, the House had a 
bill introduced before it, calling for an increase limitation 
and conditions on U.S. security assistance to Pakistan, to 
include Title 10 reimbursement, and building partnership and 
capacity programs.
    And some have expressed--I think understandably so--concern 
that this proposal would unnecessarily constrain the Department 
of Defense amidst what is already a very fluid and dynamic 
situation, to say the least, in Pakistan.
    That was capped off, during our recently concluded Easter 
recess, when the Administration submitted its fiscal year 2009 
Wartime Emergency Supplemental Request, which includes funding 
to reimburse the Pakistan military for its counterterrorism and 
counterinsurgency efforts. As I understand, the measure also 
includes a new authority and funding stream that would build 
the capacity and capabilities of Pakistani security forces, 
called the ``Pakistan Counterinsurgency Capability Fund,'' or 
the PCCF.
    Clearly, there has been a lot of activity. And we 
appreciate our panelists' efforts here, today, to help us sort 
through all of it.
    And let us just start for a moment, briefly, with the 
President's new strategic direction for Pakistan. It would seem 
to me there is little debate that Pakistan rests in a critical 
region, and is a central front on the War on Terror. They are 
an essential partner.
    But it is a complex nation, with its own set of challenges, 
including internal political uncertainty; an economic crisis; a 
rugged western border area that provides sanctuary to Al Qaeda, 
Taliban and other extremist groups, who are expanding very 
dramatically, in some instances, their reach eastward; and 
ongoing tension with India, which was reignited following the 
Mumbai attacks.
    In this light, in my opinion, I believe the President's 
strategic direction understandably focused on Pakistan. While I 
agree that Islamabad must be part of the solution in the 
region, I disagree with some who have implied that solving 
Pakistan necessarily solves Afghanistan.
    We can help make a true partner--will require elements 
within Pakistan to make the strategic choices necessary to 
sever ties with extremist groups who threaten both their own 
internal security, as well as stability, in Afghanistan, and 
the region as a whole. And a key to accomplishing this aim will 
depend on our ability to understand and exploit Pakistan's 
regional concerns, motivation and interest.
    To that end, I believe Pakistan requires a strategy that 
employs goals and requirements which support a long-term 
respectful strategic partnership, instead of one that is merely 
transactional in nature. This is where Congress must play an 
important role.
    As I stated earlier, I am concerned that efforts to limit 
and condition existing security assistance in building 
partnership-capacity efforts are counterproductive and, in 
fact, cut against our overall long-term strategic objectives in 
Pakistan. Moreover, such initiatives send mixed signals to 
Islamabad.
    Let me be clear: These programs demand oversight and 
scrutiny. Still, I believe that intelligent application of 
funding conditions should complement, not restrain, our 
strategic interests.
    And, finally--which leads me to the current security 
environment in Pakistan. I am of the opinion the traditional 
peacetime framework for security assistance--I am--sure, I am.
    I am of the opinion the traditional peacetime framework for 
security assistance is inappropriate and no longer works. The 
scale, nature and frequency of violence in Pakistan, whether it 
be the Red Mosque incident, the assassination of Benazir 
Bhutto, or the conflict raging against Al Qaeda and the Taliban 
on its western border, makes that nation more appropriately 
comparable to a combat zone, like Iraq and Afghanistan, than 
like a Central European country seeking foreign military 
financing.
    That is why, in response to a question from Chairman 
Skelton during a recent hearing, General Petraeus said, ``The 
correct analogy for our train-and-equip forces in Pakistan 
should be what we are currently executing in Iraq.'' The 
general further testified, ``We need an organization similar to 
our security-transition command in Iraq.'' And I would remind 
everyone that this is organization that successfully built the 
Iraqi security forces.
    In short, the Administration is militarizing foreign 
assistance to Pakistan very rightfully, because the enemy has a 
vote. The conflict, as the Administration's strategy concludes, 
is in Pakistan, too; for our Pakistan partner requires--is 
military capability for counterinsurgency and more.
    As such, I feel that advocates of using peacetime paradigms 
to deal with wartime problems simply fail to recognize the 
profound security challenges Pakistan face, and the scope and 
tools required to solve those problems.
    Again, Mr. Chairman, I thank you for holding this hearing. 
With that, I would yield back to balance of my time.
    The Chairman. I thank the gentleman very much.
    A word of apology to our panel: We got here just as quickly 
as we could, after the series of votes. We thank you for your 
patience. We look forward to your testimony.
    Without objection, any written testimony you may have is 
reserved for the record. We will remind the members here that 
they were strictly under the five-minute rule.
    And, General, we will start with you.
    And, again, we thank you all for being with us.
    General.

  STATEMENT OF LT. GEN. DAVID W. BARNO, USA (RET.), DIRECTOR, 
  NEAR EAST SOUTH ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL 
                       DEFENSE UNIVERSITY

    General Barno. Thanks, Chairman Skelton, and Congressman 
McHugh, and members of the Committee on Armed Services. Thanks 
very much for the invitation to speak on the future of the 
U.S.-Pakistan military partnership.
    As the chairman noted, I am still working for the Defense 
Department. But the views that I will offer today will be my 
own.
    In addition to my 19 months serving as the overall 
commander of U.S. and coalition forces in Afghanistan from late 
2003 to 2005, I stayed very engaged on these issues in my 
current job, taking approximately two dozen trips to Pakistan 
over the last five or six years. And I recently returned from a 
trip earlier this year, to Afghanistan, to the southern part of 
the country, and visited several provinces there.
    On a more personal note, my youngest son just returned from 
a 12-month combat tour in Afghanistan, where he served as an 
air cavalry scout platoon leader in the 101st Airborne 
Division. So we are very proud of him. We are grateful to have 
him home safe. And we pray every day for his fellow young 
Americans that are still in harm's way.
    So this is a personal issue for me, as it is for so many of 
the members, I know, and for those that have young ones serving 
in harm's way there.
    I would like to summarize some of my written comments 
today, as briefly as I can. First, I would note that I believe 
Pakistan, today, presents the United States with its greatest 
global strategic challenge.
    As the second-largest Islamic country in the world, with a 
population exceeding 160 million people, and a nation armed 
with nuclear weapons. A meltdown of the government and society 
in Pakistan would rapidly become the preeminent national 
security threat facing the United States.
    Events in Pakistan today are spiraling out of control. And 
our options in reversing this downward trend are limited, at 
best. I would say that a struggle for the very soul of Pakistan 
has begun. And the state of Pakistan has a very weak hand to 
play in this conflict.
    A key role that the United States and our international 
friends and allies has to play is to help strengthen this hand.
    Compounding the challenge in the Pakistani state is the 
internally conflicted nature of Pakistan, regarding this 
extremist threat. The Pakistani military and intelligence 
services are no longer the secular organizations that they were 
10 or 15 or 20 years ago. In many ways, they have become much 
more anti-American in their internal dynamics, and they have 
growing sympathies, culturally, with the insurgents in this 
fight.
    Moreover, I think that the security services remain 
convinced that their prime enemy continues to be India. No 
experienced senior Pakistani military or, I believe, political 
leader, truly believes in the depth of their heart, that the 
U.S. is a long-term partner in this region, much less a long-
term partner to Pakistan.
    The U.S.-India nuclear-power agreement cemented this 
mistrust in Pakistan. And reversing this widely held belief in 
the country will be difficult, if not impossible.
    From this perspective, all decisions in Pakistan now tend 
to be based upon the idea of what the region will look like the 
day after the United States leaves--their so-called lack of 
confidence and trust in a future that includes the U.S.
    I believe that the senior Pakistani military leadership 
remain convinced that soon after the North Atlantic Treaty 
Organization (NATO) and the U.S. give up on Afghanistan, that 
their long-term struggle with India will resume once again, and 
that they have to maintain capabilities for that next phase of 
this war.
    That is a very controversial outlook. But I think it 
underlies much of the Pakistani decision-making.
    I believe there are few realistic positive outcomes that 
are imaginable for Pakistan over the next several years. But I 
can outline three possible scenarios. And, of course, there are 
others.
    One scenario would be a state-failure scenario. This is the 
worst-case option, where a combination of accelerating economic 
decline and terrorist violence, fueled by ineffective 
governance, could destroy the economic and political viability 
of the country.
    Some movement towards an internal revolution, led by the 
hard-line Islamist factions could take place in this setting. 
And, of course, this would be the most dangerous scenario for 
us, given the nature of the military capabilities that Pakistan 
has today.
    A second option might be a continued stalemate, where the 
military and intelligence services restore some amount of 
control over the insurgents, and gain more proficiency in 
counterinsurgency, but there is continued weak political 
leadership, as governance capacity grows; but the same approach 
to cutting peace deals with the insurgence continues. This is 
essentially a continuation of what we see today.
    And then a third--perhaps a more optimistic scenario--would 
be a scenario of gradual improvement, where Pakistan achieves 
some sort of political rapprochement with India; its economy 
reaches some degree of precarious stability; and the civilian 
leadership that is still new in power gains a foothold, and is 
supported and buttressed by U.S. and international aid.
    This, of course, is an outcome that we all seek. And we are 
looking for remedies to move towards.
    Some possible prescriptions in moving in this direction: I 
would argue, first of all, that Pakistan requires its own 
strategy with the U.S., and it is not simply part of a single 
so-called Af-Pak strategy--that there are distinct differences 
culturally, politically, economically, socially, between the 
nations of Pakistan and Afghanistan. And Pakistan deserves a 
full-forced, focused, strategic appropriate in U.S. thinking 
for that nation alone.
    The U.S. must assist Pakistan in managing change--
economically, militarily, perhaps even societally, as it deals 
with these huge problems that have been brought on by a deadly 
combination of factors.
    I think the U.S. has to assess what factors are required to 
cause positive change in Pakistani decision-making, to abandon 
this so-called double game--this hedging approach that is 
expecting a future without the United States, and without the 
international community; this idea that the resumption of the 
cold war with India will be the long-term paradigm for the 
region.
    And I think a key part of that is that the U.S. has to 
build a vision of a long-term strategic partnership between 
Pakistan and the United States; one that is not simply based 
upon fighting terrorists in the tribal areas, but is a parallel 
to the emerging strategic partnership that many in the region 
point to, between the United States and India; that we have to 
grow this long-term, confident, mutually respectful strategic 
partnership between the U.S. and Pakistan in the same way we 
have begun to do that with their next-door neighbor, India.
    And regarding Pakistan's relationship to the conflict in 
Afghanistan, reversing the decline of our fortunes there, and 
achieving success, would leverage our ability to influence 
events in Pakistan.
    I think the Pakistani approach to Afghanistan, which, in 
some ways, is schizophrenic, would be changed if the U.S. 
demonstrated success there, and that we move towards a 
resolution of that conflict on our own terms, to meet our 
policy objectives there. That would give us immense leverage 
against our mutual adversary and, I think, with the Pakistani 
government.
    And, finally, continued and expanding resources for the 
civil government of Pakistan and their security sources, 
conditioned--although, perhaps, lightly conditioned to 
performance, but also respectful of Pakistani sovereignty, I 
think, is an essential step.
    Pakistan, as a state, is on a trajectory heading towards 
failure. And the U.S. must prevent this outcome, perhaps, at 
almost all costs. That said, American aid that is not connected 
to performance by the Pakistani government and military has 
proved relatively fruitless.
    Reasonable benchmarks of Pakistani progress in using 
American aid is a reasonable price for the willingness of 
American taxpayers to underwrite the future of Pakistan as a 
state, and as a partner. Pakistan is not fighting for the West. 
It is a nation fighting for its own survival. And we cannot 
allow it to fail at this task. Thank you.
    [The prepared statement of General Barno can be found in 
the Appendix on page 39.]
    The Chairman. Thank you so much.
    Dr. Kilcullen.

STATEMENT OF DR. DAVID KILCULLEN, PARTNER, CRUMPTON GROUP, LLC, 
   SENIOR FELLOW, EASTWEST INSTITUTE, MEMBER OF THE ADVISORY 
           BOARD, CENTER FOR A NEW AMERICAN SECURITY

    Dr. Kilcullen. Mr. Chairman, thank you for having me.
    I have submitted written testimony on the details of the 
bill that you are currently considering, which includes 
benchmarks. I won't go through that testimony again, unless you 
want to ask me about it.
    What I thought I would do is briefly outline why I think 
the--we are facing the problems we currently are facing in 
Pakistan, which is--if you would like a diagnosis of the 
problem--which is going to allow us to, then, move forward 
toward a solution.
    After 9/11, the United States pushed Pakistan to do more in 
the Fatah, and on the frontier against Taliban and Al Qaeda. 
And this was largely an enemy-centric approach, which saw the 
Pakistani army moving into areas where it had never operated on 
a war-footing before, and conducting armed activity against 
tribes and the civilian population, in order to find and deal 
with a small enemy element. It was an approach that was focused 
on chasing and killing bad guys.
    Since that time, 90 percent of U.S. assistance to Pakistan 
has been military, and even within the realm of military 
assistance, about 99.4 percent of our assistance has gone to 
the Pakistani military, rather than the Pakistan police.
    So, for example, in 2007, we spent about $730 million on 
the Pakistani army, and $4.9 million on the Pakistani police. I 
will come back to that as an issue, in a moment.
    The Pakistani military have taken a highly kinetic and 
coercive approach in what they have done in the Fatah, and on 
the frontier. That kinetic approach has alienated local 
populations, tribal groupings and communities, and has 
empowered local extremists, and also foreign extremists.
    Those extremists, in turn, have leveraged popular anger and 
alienation to create a large and diverse movement that you 
could describe as a coalition of the angry in the western part 
of Pakistan. That movement has now contributed to a pulling-
back of Pakistani civilian authorities away from large parts of 
Pakistan's population and territory. And we have seen the 
spread of violence and instability through most of Pakistan, 
including its largest cities.
    And in my written testimony, I have given 24 examples, over 
the last 5 years, of egregious breakdowns in security, and of 
complicity by certain elements of the security forces, with 
efforts to seize control of Pakistan's people and territory to 
extremists.
    What I am saying here is that the whole approach has been 
flawed right from the outset. Doing more of the same will not 
make things better. It will make things worse. We need a 
fundamental change of approach if we are going to turn the 
situation around.
    We need to focus on protecting the population, not on 
chasing the bad guys. And we need to do a much greater amount 
to build up civil authorities and the police service, rather 
than the military.
    Now, I say ``we,'' but, of course, we can't do that. And 
what we are looking for is a search for leverage, which is why 
we are having this discussion about benchmarks.
    As Bob Comer wrote after the end of the Vietnam War, ``No 
amount of know-how and motivation on the part of an outside 
intervening partner can substitute for lack of motivation on 
the part of a local government.'' And that is the situation 
that we are dealing with now.
    I support the use of benchmarks and accountability measures 
to ensure that the people that we are assisting are actually 
doing the job that we have paid them $12 billion to do. But I 
think I support the idea that we need to move well beyond a 
transactional approach here, and make a long-term commitment.
    But I think American taxpayers and legislators are entitled 
to ask, you know, ``Why should we give more money, and keep 
throwing good money after bad to the same people, until we get 
a firm commitment to actually stop supporting the enemy, and 
start protecting the Pakistani population?''
    I will save the rest of my time, because I am sure there 
will be questions that will come up in relation to that.
    [The prepared statement of Dr. Kilcullen can be found in 
the Appendix on page 49.]
    The Chairman. Doctor, thank you very much.
    Mr. Nawaz.
    Please flip the----
    Mr. Nawaz. Chairman Skelton----
    The Chairman. Could you get a little closer to the 
microphone, please?

  STATEMENT OF SHUJA NAWAZ, DIRECTOR, SOUTH ASIAN CENTER, THE 
             ATLANTIC COUNCIL OF THE UNITED STATES

    Mr. Nawaz. Chairman Skelton, Ranking Member McHugh, members 
of the committee, I am honored to be here to speak about this 
important issue before your committee today.
    We, at The Atlantic Council, recently produced a report on 
Pakistan that offers very detailed suggestions on aid for that 
country. The United States and Pakistan have had a 
rollercoaster relationship, marked with highs of deep 
friendship, and followed by estrangement.
    The two countries now are partners again in an attempt to 
roll back the tide of obscurantism and militancy that grips 
Afghanistan and Pakistan today.
    Yet, a deep distrust marks this relationship, arising out 
of the pattern of engagement. And this distrust is rooted in 
both perceptions and reality.
    The United States befriended Pakistan most often when it 
had autocratic rulers, and provided the most aid to Pakistan 
during periods of autocratic rule, when Pakistan was seen as an 
ally of U.S. strategic interests in the region.
    The intervening periods of civilian rule often were marked 
by distance and coolness. And the strong perception was created 
over time, in Pakistani minds, that the United States did not 
understand or care for Pakistan's domestic needs or security 
concerns.
    Mr. Chairman, Pakistan lives in a tough neighborhood. It is 
in the shadow of India, a major nuclear power to the east, and 
powerful neighbors such as China, Iran, and an unstable 
Afghanistan. Internally, it is racked by a rising militancy 
that is attempting to force its convoluted view of Islam on a 
largely moderate population.
    Pakistan has suffered repeated military rule and corrupt 
civilian governments that, often, were in the hands of the 
feudalistic elite or family-run political parties.
    Today, the United States and Pakistan are at a new 
crossroad. There is an opportunity to forage a new relationship 
between the people of the two countries, and to overturn the 
historical patterns. Civil society in Pakistan is on the rise, 
and deserves support.
    The chief of army staff of the Pakistan army is publicly 
committed to withdrawing the army from politics, and the new 
administration in Washington is committed to a strategy to help 
build Pakistan via a long-term assistance program that will 
strengthen its defense, while improving the economy.
    If Washington succeeds in these efforts, it will help break 
the yo-yo pattern of the U.S.-Pakistan relationship. But, Mr. 
Chairman, there are challenges to overcome.
    The U.S. must ensure that its aid is not seen solely in 
support of its battle in Afghanistan, and directed largely 
towards the border region of Pakistan. This aid must not be 
seen by the people of Pakistan as short-term, and aimed at 
propping up any single person, party or group.
    The U.S. and its allies must attempt to reduce the causes 
of regional hostility between India and Pakistan. Pakistan 
needs to ensure that its government prepares viable and 
practicable plans for using economic aid effectively and 
efficiently, and controls corruption so aid reaches the poorer 
segments of society.
    The government of Pakistan also needs to craft a broad 
consensus in support of a strategy to fight the militants, and 
strengthen the hands of the silent and moderate majority.
    Pakistan also needs to accelerate the doctrinal shift from 
conventional military thinking to counterinsurgency, and build 
its capacity to reclaim the areas of militancy. The civilians 
can then hold and rebuild those areas.
    In this regard, certain key elements of U.S. aid will be 
needed. First, there must be a focus on building up police and 
paramilitary capacity to isolate militants from within the 
communities. Second, community-based assistance and a heavy 
investment in infrastructure, such as roads and bridges, are 
needed to help aid reach target communities directly. The 
current system of aid flows must change so aid money is not 
soaked up by expensive overheads in Washington, Islamabad, or 
provincial capitals.
    Third, the ability of the Pakistan army to fight a mobile 
militancy should be enhanced by providing it more early lift 
capability, helicopter gun ships, transport and night-vision 
goggles.
    Fourth, the International Military Education and Training 
(IMET) program for Pakistan's military needs to rise 
dramatically. And additional training needs to be organized in 
the country, and in the region, to expose larger numbers of 
officers at all ranks, to new thinking on counterinsurgency.
    Finally, I suggest strongly that the current coalition 
support fund model of reimbursement for Pakistani operations in 
the border region should be ended. This is a cause of deep 
resentment in the army and civil society, since it makes the 
Pakistani army ``hired force,'' and makes this America's war, 
not Pakistan's own war.
    Let both sides agree to the objectives, benchmarks and 
indicators of success, and let the U.S. provide aid for those 
broad objectives, without detailed accounting. We need to 
rebuild trust between these two allies; questioning 
reimbursement claims has the opposite effect.
    Mr. Chairman, I do not believe in blank checks. Mutually 
agreed conditions of aid, rather than unilaterally imposed 
conditions, are the best way of endangering trust. We have to 
make sure that we set targets that help Pakistan achieve its 
potential, while ensuring its security and integrity. Creating 
a safe neighborhood in South Asia will help towards that end.
    Mr. Chairman, thank you. I am prepared to answer your 
questions.
    [The prepared statement of Mr. Nawaz can be found in the 
Appendix on page 54.]
    The Chairman. Thank you very much.
    Let me ask one question to each of you, please.
    Reference was made to Pakistan becoming a failed state. 
Briefly, what must we do to help ensure that it does not become 
a failed state, and that it be a strong partner in the fight 
against those terrorists that occupy its border region?
    General.
    General Barno. I think a comprehensive whole-of-government 
look at the needs of Pakistan, and how the U.S. could assist in 
meeting some of those needs would be a first step.
    I think the primary one may be--counter-intuitively--to 
begin with--would be ensuring that the economic health of 
Pakistan remains solid. Because an implosion of the Pakistani 
economy, a--really, a dissolution of the middle class, you 
know, widespread shortage of electricity, a breakdown of the 
economic order, I think, would upend the country and threaten 
its potential failure quicker than anything else.
    I think we have to ensure that Pakistan remains on a solid 
economic footing first. And then, I think, beyond that--to look 
at--along the lines of what some of my colleagues have just 
suggested--how we can improve the security capabilities of the 
Pakistani military, their frontier core, their intelligence 
services, so that the encroachment of the Taliban from the 
remote areas, into the urban areas, does not continue.
    So I think those are two areas I would suggest.
    The Chairman. Doctor.
    Dr. Kilcullen. I think we need to step back from the 
frontier, where we are currently conducting a military-focused 
operation of the bad guys, back to the east of the Indies, and 
start focusing on police work and civil-authority work to 
secure the parts of Pakistan that still remain under government 
control, which are shrinking week by week.
    We need to stop the rot and hold that area, which we are 
currently in danger of losing. And, then, once we have 
stabilized--then start expanding back out.
    What we are doing in the frontier region now, particularly 
with drone strikes and some of the other kinetic activity that 
is going on, is creating such outrage that it has led to a huge 
spike in Punjabi militant activity, both in the Punjab itself, 
and in the western part of Pakistan.
    The current path that we are on is leading us to loss of 
Pakistani government control over its own population. So we 
need to step back, control what we can control; and, then, once 
we have stabilized, being a process of moving forward again.
    The Chairman. Mr. Nawaz.
    Mr. Nawaz. Mr. Chairman, I believe that the U.S. can help 
by creating an enabling environment, because Pakistan has a 
strong civil society. It has a middle class of 30 million 
people, with a per capita income of $10,000 on a purchasing-
power parity basis. And it has the institutions that can pull 
the country back from the brink.
    We shouldn't confuse a state of chaos in a fledgling 
civilian government with the failure of the state in Pakistan. 
I believe that the military still is a disciplined and an 
organized institution. But I agree with my colleagues on the 
panel today that building up civil capacity and building up 
policing capacity to protect the communities and--so that when 
the military does clear the areas where it is used, that those 
areas can be held. It is very critical.
    The Chairman. Thank you.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentleman, I mentioned in my opening comments about H.R. 
1886, which is a bill that has been introduced that, from my 
perspective, conditions and limits security assistance to 
Pakistan that, I think, from the administration perspective, is 
unnecessarily limiting and, certainly contradictory.
    I think, as well, that if you look at the kinds of 
processes that are put into place under that legislation--that 
it tends to further, rather than limit, the transactional 
nature of the relationship, which, I think, most of us could 
agree, is not the proper way.
    Still--and as a number of you commented--the American 
taxpayer does deserve some sort of benchmark, some sort of 
metric, by which to measure where the money is going, and how 
it is being utilized, and how effectively.
    How can we find a path forward that allows this long-term 
commitment--not an overregulated, over-pontificated approach by 
the U.S. government upon the Pakistanis, that makes it less 
transitional--but we can still have some sort of 
accountability? Have any suggestions as to how we could, 
perhaps, construct those measurements?
    General, you want to start?
    General Barno. I am not sure I can give specifics, but in 
broad terms, I think we have to be very careful that we don't 
instill this idea that, somehow, this is a pay-for-performance 
partnership. The transactional performance--that we are paying 
the Pakistanis to do this, therefore, they should deliver.
    I think that is utterly wrong in terms of the psychological 
outlook there, and it undercuts any notion of mutual respect 
between the two nations, and the idea of developing some sort 
of a long-term partnership beyond what is required out there 
today.
    So, I do think that some conditionality is appropriate. I 
would suggest that there would be some value in having more 
private conditionality and less public conditionality, whether 
that is done through closed hearings or done through some 
mechanism between the U.S. government and the Pakistani 
government that is done behind closed doors, as opposed to 
being an overt, perhaps even legislated in part, of any 
approach to, you know, the aid that is falling into Pakistan.
    I think that will simply undercut entirely the idea that 
this is a respectful partnership between two nations that have 
many mutual interests out there.
    Mr. McHugh. Thank you.
    Doctor.
    Dr. Kilcullen. I actually think that the emphasis on 
benchmarks and accountability in H.R. 1886 is not necessarily a 
bad thing. In fact, I quite support that.
    The part of the bill that gives me a little bit of concern 
is where it essentially pretends that Pakistan is a weak-but-
willing ally against extremism. Whereas, the fact is that 
fairly substantial portions of the intelligence service, 
smaller elements within the army, and some other elements, are 
actively or passively supporting the enemy.
    So I don't think it is in anyway unreasonable to expect 
Pakistan to make a commitment to cease supporting the enemy, 
before we give it more of the same money that has resulted in 
no improvement, and, in fact a dramatic deterioration since 
2001.
    I agree with you that we shouldn't be taking a 
transactional approach. But I don't think that the solution is 
to take off any constraints, and just keep on handing over 
money. I think that we need to push for a genuine change of 
heart among certain elements within Pakistan.
    I think it is also pretty clear that the Pakistani civilian 
democratically elected leaders do not enjoy full control over 
their own national security establishment. And that is another 
reason why, I think, challenging funding to the military, 
through elected civilian authorities, is a positive step, 
because it strengthens the groups within the Pakistani 
government structure that support the United States, and do 
have a genuine relationship of trust. And it limits the power 
of some of those elements that have, in fact, been working 
against that relationship.
    So it is a pretty complex picture on the ground. But I 
think it is relatively straightforward in terms of assistance. 
If we keep pretending that Pakistan is a weak-but-willing ally, 
we are going to get the wrong answer. We need to recognize that 
some parts of the Pakistani state are on our side, and others 
are not.
    Mr. McHugh. Mr. Nawaz.
    Mr. Nawaz. In my view, it is not a good idea to frontload 
conditions, as much as getting to a discussion on indicators of 
success by defining the end goal--mutually agree upon those end 
goals.
    In that sense, a lot of what my colleague, Dr. Kilcullen, 
has said makes sense--that you agree on the objectives. And, 
then, I personally believe in what is known as a results-based 
budgeting, where you give the money to people who decide what 
the metrics will be. And then you agree upon those metrics, 
rather than imposing conditions up front.
    I think it will be much more effective that way, and won't 
create the impression that this is a pay-for-hire scheme, as 
General Barno said.
    Mr. McHugh. Thank you all.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    By virtue of the previous agreement, we will begin toward 
the front.
    Mr. Kissell, you will lead off. And I will ask the 
gentleman from Mississippi to assume the gavel.
    Mr. Kissell. Thank you, Mr. Chairman, and thank the panel 
for being here today. There is so many questions that come to 
mind, and--as we look at this issue.
    How do we get the forces within the intelligence community, 
whatever, in Pakistan, that are working for the enemy--how do 
we get them either through their government cracking down or 
whatever--how can we get that to stop? And whoever feels free, 
jump in on this one.
    General Barno. I think I would, maybe, re-characterize that 
a little bit. My judgment is not that there are elements inside 
the Pakistani intelligence service and military that are 
working for the enemy. I think there is very strong evidence 
that the intelligence service, especially, has maintained 
contacts with the enemy for various reasons over the last many 
years--has a relationship with many of these groups, and has 
significant influence, at a minimum, with any of these groups.
    That is the least--I think I would say--and there is, 
potentially, a lot more there. But I think it is done out of 
what is perceived as national interest.
    There is a belief that if the ultimate enemy of the state 
of Pakistan is India, next door, that these groups provide a 
weapon in that toolbox to use against India--not today, but for 
the day after tomorrow, when the front in Afghanistan opens up 
again, when there is not necessarily an international force 
there, or to use as an irregular force in other parts of the 
conflict with India.
    So I think, ultimately, that many of these decisions aren't 
made for reasons that we might suspect. They are made in what 
are viewed as the national interests of the people that are 
making the decision; that they are hedging against a different 
future than the one that we see.
    Mr. Kissell. If we have success in Afghanistan--and I have 
just returned from over there. And I heard so many times that, 
``We could do everything perfect in Afghanistan, and that could 
be all negated by what happens in Pakistan.''
    If we have success in Afghanistan--General, you mentioned 
something about that--that could help bolster Pakistan. I could 
see, perhaps, it might hurt Pakistan if the Taliban is forced 
to stay over there, and they start looking for success there.
    I wonder if you could elaborate on that possibility.
    General Barno. It is my belief that if we defeat the 
Taliban insurgency inside of Afghanistan--if that is a 
inhospitable place for them, and if the population is dead-set 
against them--if there is economic growth, if the security 
forces are much more effective, and that we are winning two 
years from now in Afghanistan--that that is going to be a very 
difficult pill to swallow for the Taliban inside of Pakistan.
    It is going to weaken them considerably. It is going to 
take away, in effect, their rear area--if you want to look at 
Afghanistan as their rear area.
    So I think that we do have the ability to turn the 
situation around in Afghanistan. And we actually have far more 
tools at our disposal in Afghanistan, because of all the forces 
we have there, because of our access to the Afghan army, and 
all the territory and all their security forces there, and the 
amount of international support.
    So we have a huge range of things we can do in Afghanistan 
to turn that around. And I think doing that will put us in a 
much better position vis-a-vis Pakistan, and put the enemy in a 
much worse position.
    Mr. Kissell. The other two gentlemen--do you all disagree 
with that?
    Dr. Kilcullen. I think I would just offer some guiding 
points, out of my written testimony, about the behavior of 
certain elements within the Pakistani military, and 
intelligence services.
    July 2008, the India embassy in Kabul was destroyed in a 
large bomb attack. Afghan intelligence concluded that it was 
sponsored and supported by the Inter-Services Intelligence 
(ISI) and the Pakistani intelligence service, and carried out 
by the Haqqani Network, which is an organization that has close 
ties to ISI.
    In November last year, there was a very large-scale 
terrorist attack in Mumbai, in India, launched from the 
Pakistani port of Karachi, and carried out by terrorist 
organization Lashkar-e-Taiba (LeT), which was sponsored and set 
up by the Pakistani intelligence and military service.
    The only surviving attacker claimed that he had training 
for more than a year from retired members of Pakistani special 
forces, and the intelligence service.
    There have been numerous incidents where Pakistani forces 
on the frontier have fired on our troops as they attempted to 
prevent the Taliban from withdrawing back into Pakistan. Last 
year, we lost over 400 NATO vehicles on a route through 
Pakistan that is, supposedly, protected by the Pakistani 
military.
    So I agree that we shouldn't be paying for service. If we 
are paying for service, we are not getting anything for our 
money, anyway. What we should be doing is stepping back, and 
trying to recreate this relationship on a completely different 
basis, because it is simply not working as it currently stands.
    Mr. Nawaz. If I could add, sir--there was a relationship 
between the ISI and the LeT. And this has been written about 
and spoken about quite often.
    There doesn't seem to be any evidence linking the ISI or 
the government of Pakistan to the Mumbai attacks. And if that 
evidence had been available, it would have been provided to 
Pakistan by India, where an exchange is taking place.
    Indeed, the LeT, the Jaish-e-Mohammad, the Lashkar-e-
Jhangvi--have all now aligned themselves with the Tehreek-e-
Taliban of Pakistan, as well as with Al Qaeda, as a kind of 
franchise arrangement. And in a substantial number of the 
attacks that occurred in 2008, inside Pakistan, through suicide 
bombings, the targets were the Pakistan military themselves.
    So if anything, this kind of a break off the Frankenstein's 
monster that was created at one time, by the ISI, for use 
against India and Kashmir, is likely to, now, turn the military 
into rethinking that relationship. The question is how soon 
that thinking can begin.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Taylor. [Presiding.] The gentleman from Louisiana, Mr. 
Fleming, for five minutes.
    Mr. Fleming. Can you hear me? Oh, okay. Thank you.
    Thank you, Mr. Chairman.
    Yes, I have a question for the general.
    What type of government would Pakistan end up with if there 
was--you mentioned how unstable things are there. Obviously, we 
worry about an Islamic theocracy, such as what we have in Iran 
today.
    What is your understanding, based on what you see and the 
elements you observe, that we may end up with if that were to 
occur?
    General Barno. Well, again, this is a worst-case scenario. 
And we all absolutely hope nothing like this transpires. But I 
think there is some risk of this happening.
    My guess would be it would look somewhat like what we saw 
when the Taliban took over Afghanistan--that they would simply, 
you know, seize all the organs of power. Afghanistan and 
Pakistan are two very different nations. They have got very 
different levels of development. They have very different kinds 
of militaries on--it is not clear in my mind how that would lay 
out in Islamabad--again, just a horrific scenario.
    But I think that this idea of a popular uprising--someone 
suggested that it might look something like the Iranian 
revolution in 1979--that that type of a nationwide uprising 
could sweep across Pakistan. Again, I don't think that is a 
high-probability outcome, but I think it is possible.
    And--and I think the outlook at that, at the end of the 
day, would look very much like what the Taliban rules--their 
mechanisms of ruling Afghanistan--that same philosophy of rule, 
I think, would be in effect, if they were to take power.
    Dr. Kilcullen. Could I just add--I just want to say, 
whatever the political characteristics of that regime, that it 
would be a nuclear-armed regime, with about 100 ballistic 
missiles. And that is a factor we should be considering, 
irrespective of its politics.
    Mr. Fleming. And the reach of that ballistic missile would 
be what?
    Dr. Kilcullen. I don't have the technical details, but it 
covers the bulk of South Asia, and out into Iran. So we would 
have to ask ourselves what India's response would be to that 
circumstance.
    Mr. Fleming. Right.
    Okay. Thank you.
    Dr. Kilcullen, you mentioned that you feel like it would be 
better to assist the police, or provide aid to police, rather 
than military. And, of course, the police vary in terms of 
locale, as to what level of corruption may exist, what their 
sentiments might be--Taliban--pro or against.
    Do you see problems there, you know? Or would we really get 
into the same kind of problems we have in Africa today, where 
we provide aid and it ends up in the bad guys' hands?
    Dr. Kilcullen. There are a number of different police 
forces in Pakistan. The principal police service is run at the 
provincial level. But there is also a Pakistani police service, 
and the Rangers, which are a paramilitary organization 
operation. It is in Singh and the Punjab. And then, there is 
the Frontier Constabulary, and the Frontier Corps, in the 
Northwest Frontier Province in Balochistan. So there are a 
number of different police forces.
    There has not been the same level of complicity between the 
police and militants, as there has been in the history of 
Pakistan, between the military and the intelligence services, 
and militants. They have a number of problems, as you rightly 
said: corruption; lack of equipment; lack of evidentiary 
capability, like forensics; lack of protected mobility. They 
are intimidated. Their families aren't protected. They are not 
unconnected with the fact that we have hardly given any 
assistance to the policing and judiciary sector in Pakistan. 
They are one of the weakest elements of the Pakistani Security 
Service.
    But, you know, as a counterinsurgency specialist, I can 
tell you there has never been a successful counterinsurgency in 
which there was not a very substantial role for a capable 
police force. We can't expect to defeat these insurgents until 
we have a police force that actually protects, and lives with, 
and looks after, its own population.
    I would also say that, from a policy standpoint, increasing 
our age of the police would actually have four substantial 
benefits, which are listed in my written testimony. It would 
improve the protection we are giving to the Pakistani people, 
which is one of the big weaknesses we have. It would improve 
counterinsurgency performance. It would enhance the rule of 
law. It would also weaken the political power of the army vis-
a-vis the civilian leadership.
    The police are the only element of the Pakistani national-
security establishment that is more interested in preventing 
state collapse and extremist takeover than they are in fighting 
India. So they have got to be a prime candidate for our 
assistance.
    Also, it is much more difficult to turn police assistance 
against us than it would be to turn military assistance against 
somebody else. So it is a safer form of assistance than 
providing high-tech military assistance.
    I just think that you could double or triple the amount of 
assistance we are giving to the Pakistani police, and it still 
would only be 1.5 percent of what we are giving to the army.
    So I think, you know, there is scope there for doing a lot 
more, without necessarily cutting back on other forms of 
assistance.
    Mr. Taylor. Chair thanks the gentleman, now recognizes the 
gentleman from Iowa, Mr. Loebsack, for five minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    And I want to thank the witnesses for being here today. I 
seemed to have heard a lot of common threads; the basic one 
being, I think, that we need a change in strategy, and how 
America approaches this part of the world and, in particular, 
how America approaches Pakistan.
    And I couldn't agree more. And I do want to echo a concern 
that Mr. Kline had at our last hearing on these issues, where 
he--and I don't know if any others feel this way--but to refer 
to what we have there now as an Af-Pak strategy might be 
somewhat insulting to many in Pakistan. If you want to comment 
on that, that is fine.
    But I do want to ask you, General Barno--you mentioned 
that, really, what we need--and I think everyone probably 
agrees on this--at least, on the panel--is some kind of a long-
term strategic partnership with Pakistan.
    And all of you have been kind of addressing that without, 
perhaps, laying out three or four or five aspects to what that 
strategic partnership ought to be. And I would like to ask each 
one of you to do that. I know, maybe, I am catching you a 
little unawares. Maybe you have all this in your written 
testimony already. And that is fine, if you want to repeat it.
    But what is that strategic partnership? What should that 
strategic partnership, in your view, look like, taking into 
account not only our relationship with Pakistan per say, but 
India and any other countries' interests in that region as 
well?
    General, would you like to start?
    General Barno. That is a very good question. And I have not 
thought this through all the way; so just, perhaps, some 
initial thoughts about it.
    I think one of the parallel elements that has to be part of 
this idea of a long-term U.S.-Pakistan strategic partnership is 
that we have to--without directly getting involved, we have to 
encourage both Pakistan and India to continue their confidence-
building to reduce the tensions between those two countries.
    In my judgment, the biggest factor that undermines any of 
our goals and objectives with Pakistan right now--and would 
undermine a long-term partnership--is their almost, you know, 
fundamental, unalterable belief that India is their permanent 
enemy, and that enemy is an existential threat to Pakistan, and 
India will always be a force that they have to be postured 
against.
    If we can break that down, if we can help that cold war to 
go away, much like our own Cold War with the Soviets went away, 
then all things from that point are possible, and all changes 
are possible. It changes the entire paradigm in the region. So 
I think that has got to be a parallel effort.
    In terms of the U.S.-Pakistan bilateral relationship, I 
think we have got to have an approach that has a--and an 
economic interdependence. And there may be some things we can 
do with trade, there, to facilitate the two nations being 
linked better together in that department.
    I think exchange of educational opportunities would be very 
important. And, you know, we have got the best university 
system in the world that is the envy of every country in the 
world. Having more Pakistanis come to that and, perhaps, 
eventually, more Americans going to Pakistan, would be very 
useful to break down some of those barriers.
    There is currently a military dimension. I think we could 
do much more in terms of international military education and 
training with Pakistanis. We had a nearly 10-year period, where 
we had no Pakistanis at all coming to the United States for 
training. That lost generation of Pakistani officers, now, are 
among the most anti-American in their military, because they 
had no exposure, you know, to our schools and our war colleges, 
and our service schools, here, which is a terrible thing, a 
terrible mistake; and we have to try and rebuild that.
    Then, I think, clearly, there is an equipment and doctrine-
and-training correlation there, on the military side as well.
    So, those would just be some preliminary ideas. But I think 
all of these help instill some confidence that we are not just 
interested in Pakistan for the next three years. That is the 
outlook right now. It is all about killing terrorists and going 
after Al Qaeda, in their view of our relationship with them. 
And we have got to deepen that far beyond what it is today.
    Mr. Loebsack. Right. And everyone seems to agree that the 
whole transactional approach, as you call it, that we had in 
the past--it is not the right way to go.
    Dr. Kilcullen.
    Dr. Kilcullen. I agree with the general. But I want to 
comment on another category of issue, which is the multilateral 
security guarantee, or the regional security architecture.
    A number of other original players have very substantial 
interests in the stability of Pakistan. China has a very 
substantial port facility at Gwadar, in the southern part of 
the country, and plans to open a north-south route in to 
Western China, which will be extremely important to the future 
economic development of Western China. They have had a very 
strong economic and geopolitical interest in a stable Pakistan 
not owned by extremists.
    Iran--there were 30 million Shia in Pakistan. Lashkar-e-
Jhangvi and other militants in Pakistan are currently carrying 
out what I would call a slow-motion genocide of Shia in the 
western part of Pakistan, with men, women and children being 
killed in an incredibly gruesome fashion. If you go talk to 
Pakistanis, there is imagery of this being passed around 
Pakistan day by day. The Iranians have as strong interest in 
preventing that kind of killing.
    The Russians are extremely worried about the situation in 
Pakistan, and its possible effects on the former Soviet Central 
Asian Republics. The European Union (E.U.) has millions of 
Pakistani citizens living inside of its borders, and has an 
interest in a stable Pakistan.
    India and the U.S., obviously, have interest. So it is 
entirely possible that we have a relationship with the 
Pakistanis, where there is not a lot we can do. But 
multilaterally, there is an enormous amount that we can do, 
diplomatically, to give the Pakistanis a feeling of security 
that allows them to feel they can stop using support for 
militancy as sort of a unconventional counterweight to Indian 
regional influence.
    Mr. Taylor. The chair thanks the gentleman, now recognizes 
the gentleman----
    Mr. Coffman. Thank you, Mr. Chair.
    Mr. Taylor [continuing]. From Colorado, for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Let me make a statement, and would love your response to 
it. In just an observation of our current situation--and it 
seems to be that the United States finds itself, at this time, 
stumbling into an ever-widening war.
    And when we look back at the policy, it seems that the 
first phase was brilliant in Afghanistan. President George Bush 
gave air advisory logistical support to the Northern Alliance, 
who defeated the Taliban on the ground. And, then, we pushed 
them aside and superimposed a political process that gave the 
Afghan people the government that we wanted them to have.
    And now, in fighting for stability for that government, 
that doesn't have a lot of legitimacy outside of Kabul--that, 
perhaps, our policy is destabilizing Pakistan in recruiting the 
Pakistani government to fight the Taliban, who are not their 
natural enemies--and now they are enemies.
    And so we are there now. We have to do our best to, 
obviously, make this policy work. I think extricating ourselves 
is going to be difficult from this.
    In terms of support for Pakistan, it doesn't seem that 
there are any initiatives by the United States to be an honest 
broker in the situation with Kashmir, which is the focus of the 
Pakistani military.
    And I certainly like the idea of, instead, giving aid, 
perhaps, to the police, civil elements, and the Frontier Corps, 
that could, hopefully, contain the spread of militancy from the 
Fatah.
    And so, could you--anybody--respond to those observations?
    Yes?
    Mr. Nawaz. If I may--just to go back to the broad issue of 
what conditions would help stabilize Pakistan to begin with, 
and prevent it from being destabilized has an unintended 
consequence of the war in Afghanistan.
    There are key roles that the region can play as an economic 
unit. There are plans already on the drawing boards that were 
discussed, and in very advanced stages of preparation for 
linking Central Asia, Afghanistan, Pakistan and India, and also 
for linking Iran and Pakistan and India--the IPI pipeline. 
Then, there is the Turkmenistan-Afghanistan-Pakistan-and-India 
pipeline.
    We have covered a lot of these possibilities, as the 
practicable measures, in the report of The Atlantic Council. So 
I would definitely refer the members to that document.
    But the key point in all of this is that if you create 
vested economic interests on both sides of the India-Pakistan 
border that see it to their advantage to trade, and for there 
to be a traffic of populations across that border, it will make 
it impossible for the two countries to go to war.
    The two countries, according to Economics 101, should be 
each other's major trading partners. But the U.S. is a major 
trading partner of Pakistan, and also of India. They don't 
trade much with each other.
    The United States sanctions against Iran also imposed an 
impediment to the creation of the IPI, the Iran-Pakistan-India 
pipeline, because Indian multinationals do not want to run 
afoul of U.S. laws.
    So there are these other conditions that the United States 
can quite seriously change in the region, which would allow the 
region to prosper by itself, without the infusion, necessarily, 
of large amounts of aid. And I think that is the critical part, 
because both India and Pakistan have a youthful population, 
very productive. They will be very productive for the next 20, 
30 years. They can take advantage of these opportunities, also, 
by lowering tariff barriers to textile imports from these 
regions.
    You can help them help themselves.
    Dr. Kilcullen. I would just pick up something you talked 
about in terms of our success in Afghanistan in 2001, and build 
on that.
    The last Taliban stronghold in Afghanistan to fall was 
Kandahar. It fell on the seventh of December, 2001. At that 
time, there were 110 Central Intelligence Agency (CIA) 
officers, and about 400 coalition special forces operating in 
the south of Afghanistan. But we had 50,000 Afghans, fighting 
on our side, against the Taliban.
    The reason we defeated the Taliban so swiftly in 2001 
wasn't the sheer brilliance of our air power or our high-
technology weaponry, or anything like that. It was the fact 
that we had Afghans on our side.
    We still have the bulk of the Afghan population on our 
side. The approval rating for U.S. forces in Afghanistan is 64 
percent, which is about 5 percent better than President Obama's 
approval rating, here in the United States. So there is a lot 
of support for our presence in Afghanistan.
    We don't have anything close to that kind of support in 
Pakistan. But large parts of the Pakistani population do not 
like the extremists, are opposed to them. We have tribal 
leaders in Swat and Waziristan raising their own groups to 
fight the Taliban. We have community leaders turning against 
them.
    A friend in Pakistan told me that 70 percent to 90 percent 
of people in the Swat Valley are appalled by the Taliban 
takeover of the area. There is a lot of groundswell against the 
enemy. If we can successfully build a partnership with the 
Pakistani people--not necessarily the government, or the army, 
or the intelligence services that we have been talking about, 
but the Pakistani people--I think that is the key to turning 
some of this around.
    You know, as Mr. Nawaz said, it is not a matter of aid and 
paternalistic development. It is a matter of equal partnership.
    Mr. Taylor. The chair thanks the gentleman.
    The chair now recognizes the gentlewoman from 
Massachusetts, Ms. Tsongas.
    Ms. Tsongas. Thank you all very much.
    And I have appreciated your testimony. And I have heard 
several themes from all of you, one of which is the trade 
deficit that we have with the country of Pakistan, and also an 
emphasis on sort of development--the economy, civilian 
capacity--all of which takes time to address.
    And my sense is that we are running out of time; that we 
are trying to change the dynamic on a dime, when we really--it 
will take much longer than that.
    So I am really wondering: Are there some strong signals we 
can send that would communicate that message while we go about 
the long-term process of addressing these very complicated 
issues? To all of you--whoever wants to go first?
    General Barno. Well, I do think there is a recognition with 
a new U.S. Administration that there is a tremendous amount of 
energy being put on thinking through revamping our relationship 
with Pakistan right now.
    I think Pakistanis recognize that. You know, we have--
Admiral Mullen is back out there this week, the second time in 
two weeks. You know, we have had senior delegations going 
through there. It is on the front page of American newspapers. 
And there is a lot of money being looked at, not only here, in 
terms of legislation on the Hill, but what the Administration 
is proposing.
    So I think there is an understanding that this is a time of 
major focus and change, and that it is moving at a relatively 
rapid rate. We are still only in--right at the edge of the 
first 100 days of this Administration. So there is quite a bit 
going on.
    I think we could probably communicate that better in our 
information strategy inside of Pakistan. I do think we do very 
badly communicating to the Pakistani people. That might be an 
area, whether it had done here, from Washington, or done better 
in the region--that we would see something successfully, 
because we are doing that, I think, quite poorly right now. And 
it could better convey what our real goals are, and how much 
interest we have in this partnership with Pakistan, over the 
long haul.
    Dr. Kilcullen. I think one of the things we could do that 
could send a strong message right now is we could call off the 
drone strikes that have been mounted in the Western part of 
Pakistan.
    I realize that they do damage to Al Qaeda leadership. Since 
2006, we have killed 14 senior Al Qaeda leaders using drone 
strikes. In the same time period, we have killed 700 Pakistani 
civilians in the same area. The drone strikes are highly 
unpopular. They are deeply aggravating to the population. And 
they have given rise to a feeling of anger that coalesces the 
population around the extremists, and leads to spikes of 
extremism well outside the parts of the country where we are 
mounting those attacks.
    Inside the Fatah itself, some people like the attacks, 
because they do, actually, target the bad guys. But in the rest 
of the country, there is an immense anger about them. And there 
is an anger about them in the military, and the intelligence 
service.
    I realize that it might seem counterintuitive, but we need 
to take our foot off the neck of these people so they feel that 
there is a degree of trust. Saying we want to build a permanent 
relationship of friendship with them, whilst continuing to bomb 
their population from the air, even if you do it with robot 
drones, is something that they see through straightaway.
    Ms. Tsongas. Thank you.
    Mr. Nawaz. I would suggest that something that can be done 
rapidly and visibly is heavy investment in infrastructure, 
starting off with Fatah, where, if you--the United States will 
support, first, the Pakistan army, engineering battalions, as 
well as their Frontier Works Organization, in building roads 
and bridges and small dams, and erecting tube wells, to get the 
economy going and integrated into the rest of Pakistan.
    It would be seen visibly as something useful to the local 
population; then, you will see a spontaneous growth of the 
information sector of the economy around those roads. And in 
economics, the most immediate and maximum returns are to roads, 
in terms of rates of return.
    The U.S. could also consider helping with some of the major 
infrastructure projects, similar to what China has done in 
Pakistan. That would show that it is there to stay, that it is 
building for the long run. And one idea is to look at the right 
bank of the--a highway that could connect Gwadar, all the way 
up to the north of the country, and then through Afghanistan, a 
road-and-rail link to Central Asia.
    These are the kinds of heavy, long-term investments that 
would yield some immediate employment, as well as a clear 
signal that the U.S. was there to stay.
    Ms. Tsongas. Thank you all.
    Mr. Taylor. The chair thanks the gentlewoman.
    And we now recognize the gentleman from California, Mr. 
Hunter, for five minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Could you go into a little bit--Dr. Kilcullen mentioned it 
over and over--why don't we copy the success we had in--I 
understand, in Iraq and Pakistan and Afghanistan--are totally 
different places. Why don't we copy the success we have in the 
Sunni triangle, with the Marine Corps, working at the tribal 
level, in both Afghanistan--and I understand, too, all the 
different things we are talking about--Pakistan--they have to 
allow us to do that.
    If we want to do certain things in Pakistan, the one thing 
that they--they have to let us do it, because we haven't 
invaded Pakistan, obliviously, and we can't do what we want to 
do. So they have to allow all of these different things that 
you are talking about. In a perfect world, they would have to 
allow us to do all those things.
    So how do we get down to that tribal success that we had in 
Iraq, because Afghanistan and Pakistan are very tribal? And 
there are certain areas cut off from other places, and they are 
very family and tribally oriented there. So how do we really 
bypass that top level, and start pushing from the ground up, as 
opposed to the top down, and copy the success that the Marine 
Corps had in the Sunni triangle.
    Dr. Kilcullen. I might pick that up initially.
    Pakistan and Iraq and Afghanistan, as you said, are very 
different. And we don't have the leverage in Pakistan that we 
had in Iraq, or that we have in Afghanistan. But I think the 
history of the Pakistani army's relationships with the tribes 
is instructive here.
    The Pakistani army first went into the tribal areas during 
the tour of Zawar Kili campaign of 2002. That was the first 
time the regular Pakistani military had ever operated on a war 
footing inside the Fatah. The reason they hadn't been there 
before was because there was, basically, an agreement that had 
been in place since the British period, whereby the tribes 
essentially agreed to sit down quietly, under the political 
agents--the Maliks, the Frontier Corps, and the other elements 
of the Frontier Crimes Regulation--and provided they were 
quiet, they would be left to govern their own affairs.
    The unstated section was, ``If you step out of line, the 
army will come in and kick your ass.'' In 2002, the military 
went into the Tirah Valley, and lost.
    And so they called their own bluff. And the tribes lost 
respect for the army. The army, then, negotiated the Shakai 
Agreement in 2004, where Nek Mohammad, who was then the leader 
of the local Taliban, was essentially treated as an equal by a 
Pakistani general. And the tribes further saw the extremists 
being empowered, the traditional tribal leaders being 
sidelined, and the army looking powerless.
    So the basic system of how the frontier was governed has 
broken down.
    Mr. Hunter. I appreciate the history of it. And you know a 
lot more about it than I do. But you also said in Swat, for 
instance, 90 percent of the people there don't like Taliban.
    And I am not talking about the Pakistan army coming in and 
trying to assert authority with each tribe. I am talking about 
us helping them, or them allowing us to work with them on a 
tribal level, where we go in and empower the actual people to 
want to get the Taliban and Al Qaeda out of their area.
    And they will understand that we will protect them if they 
do that.
    Dr. Kilcullen. Last year, we started to see the Pakistani 
army do that, and we saw a lot of success in the campaigns in 
Malukan and Abuja, where they started to actually work with the 
tribes, instead of against them. So we know the Pakistani 
military, or some elements of it, is capable of that. I don't 
think that we have the leverage to directly engage with the 
tribes at this time. And the environment is probably too 
dangerous for Western Non-Governmental Organizations (NGOs) or 
civil authorities to operate in there.
    I think we are going to have to work on the ability of 
Pakistani civil servants and the political agents, and the 
elements of the Pakistani civil service, and their local law 
enforcement, doing a sort of similar tribal bottom-up approach.
    Mr. Hunter. But let me ask you this, then: All of these 
things, that included, requires the Pakistanis do what we would 
like them to do. So how do you make that happen?
    Dr. Kilcullen. I don't think you can.
    Mr. Hunter. Right. So there is a whole--the whole crux of 
all of this--all these are great ideas, but how do you make 
them do it? I don't understand how you make them do what we 
want them to do, without doing pay-for-play, right?--which you 
said we don't want to do.
    There is no way to make them do anything.
    General Barno. I think we have to convince them that this 
is in their best interest, and this is the only way to solve 
the encroaching threat of the Taliban seizing control of even 
larger parts of the country.
    You know, there is never going to be American Marines in 
Swat Valley, and American soldiers in Swat Valley that--to do 
what occurred in Anbar. And the reason, in large measure, that 
Anbar worked is that the tribes finally believed that the 
Americans were staying. And the Americans, rightfully, 
convinced the tribe--I had an American brigade commander tell 
me that the tribes came with us when we changed our message 
from, ``Don't worry; we are leaving,'' to a message that said, 
``Don't worry; we are staying.''
    We are not going to be able to give that message in Swat, 
or anywhere else in Pakistan, I don't think. But the Pakistanis 
can. And they can do it, probably, best, in some ways, through 
their Frontier Corps. Now, Swat--it is a bit outside of that 
territory, but the rest of the Fatah in the Northwest Frontier 
Province--that could be an approach that the Frontier Corps 
could take, and the U.S. could very much help advise that, 
provide information on how to approach that, help them work 
with the tribal structures, and understand the tribal 
structures, from a bit of a distance.
    We have some ability to do that today, although the 
Pakistanis are very resistant to having us present out there. 
But it is never going to be--I don't think American forces--
they can do that there.
    Mr. Taylor. The chair thanks the gentleman.
    The chair now recognizes the gentlewoman from California, 
Mrs. Davis--five minutes.
    Mrs. Davis. Thank you.
    Thank you all for being here.
    You were talking about this change in strategy--I think, 
the message that we have to send. And I am just wondering, are 
there some things that you see right now, that are not being 
helpful, that, somehow counter this change in approach, that we 
should be thinking about?
    General Barno. Let me jump into that, because I disagree 
with my good friend, David, here, on this. And he has mentioned 
one, which I think he will bring up again--the drone attacks.
    But I have a different perspective on that. And I think my 
judgment is that even though that is disruptive in the minds of 
many Pakistanis right now, I think that that has to continue, 
in some ways, because it is the only pressure that the 
insurgent groups in those denied areas, in those tribal areas, 
are feeling--you know, I have seen open-source reports that say 
that there is people living in orchards, now, because they are 
afraid to live inside of compounds, and they are constantly on 
the move. And it is having a very significant disruption effect 
on the terrorist organizations that are there, because they are 
not feeling any pressure from any ground component from inside 
of Pakistan.
    And I have heard, off the record, some Pakistanis say that, 
``If that is the only way that we can strike at the elements 
that are out there, and have success, then it should continue, 
even though it is painful.''
    So I think there is mixed reporting on that. From my 
perspective, I think that there is value in continuing that.
    I think the public proclamations of the Pakistani 
government on that are not terribly helpful for us. So I would 
like to throw a preemptive counter in front of Dave on that 
one, first.
    Mrs. Davis. Okay.
    Dr. Kilcullen, could you also comment on--I think, in your 
book, we talk about our not understanding the environment. Or, 
at least, one of the experts that you spoke to had said that.
    And do we understand the environment? Clearly, it is a 
multifaceted environment. And I am just wondering whether we 
are taking the state--the steps to understand what we are 
really working with today.
    Dr. Kilcullen. I would make two points. One, on the joint 
strikes: I agree that they are doing a lot of damage to the bad 
guys. It is us doing that damage. So, let me just review. We 
are paying the Pakistani military to protect our vehicles, 
which they are not doing. We are paying them to conduct 
counterinsurgency in the Fatah. And the only damage we are 
doing to the enemy is to our own strikes, which they are being 
able to say, ``Oh, the bad Americans are striking the Pakistani 
population.''
    It is not a sound way to do business. There are other ways 
to disrupt the terrorist movement than using robots from the 
air. And I would suggest that, in a tribal culture like the 
Pashtun culture--that, to a certain extent, looks both cowardly 
and weak. There are other ways to do it.
    I don't want to talk about that in an open hearing, but it 
is pretty clear that drones are not our only option.
    Secondly, in terms of understanding the environment, I 
don't believe that we have listened enough to local people in 
Pakistan. And I think one of the clearest examples of that is 
that we have had a tendency to look back to how things used to 
be under the Raj, and try and recreate a structure of sort of 
paternalistic, internal colonialism inside the Fatah.
    And we have repeatedly pushed back on the idea of 
elections. And we have said, ``Well, we support the idea of the 
political parties not being able to operate up in the frontier, 
and the local people not having a vote.''
    I spoke in detail with a Darabandi religious leader up in 
the Fatah, who said, ``Look, why are you supporting this anti-
democratic stance towards the people of the Fatah. Just let us 
vote for our own leaders.'' And, of course, the counter to that 
is we say, ``Well, extremists will be elected.''
    And that is maybe true. But if they do a bad job, they will 
be unelected, as Mr. Nawaz just said earlier. And, also, in the 
elections that we had in 2008, up in that area, it wasn't 
extremists who were elected. It was the Awami National Party, 
which is a secular group.
    So I just think we overstate our ability to influence, and 
we don't listen enough to local people.
    Mrs. Davis. Mr. Nawaz, would--do you want to concur with 
that, or do you have----
    Mr. Nawaz. I agree with that. And, in fact, there was a 
commitment by the prime minister of Pakistan to change the 
local legal system, as well as to integrate the Fatah into the 
rest of Pakistan. And we are still waiting for action on that.
    But quite important, I think, is the fact that a lot of the 
discussions between the United States and Pakistan that are now 
taking place through the media need to take place behind closed 
doors.
    And on the drones, there is clearly a Kabuki theater, of 
sorts, going on, because there is some kind of tacit 
understanding. And the people of Pakistan haven't been brought 
into it. So it is very important to bring them into the 
picture.
    One way of continuing the drone attack, because they are 
successful, is by allowing Pakistan to sit side-by-side with 
the U.S., and take credit for the actual kill shots--then let 
that be the approach; although, I agree with David, that there 
are much better ways of doing it on the ground. And you can 
train people to do it much more effectively, without the kind 
of publicity that drone attacks generate.
    Mr. Thomas. The chair thanks the gentlewoman.
    The chair now recognizes the gentleman from South Carolina, 
Mr. Wilson, for five minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all, for being here.
    General Barno, thank you very much for your leadership at 
Fort Jackson, your success in Iraq and Afghanistan, your son's 
service in Afghanistan.
    As we consider Pakistan, I know we all want the best for 
the people of Pakistan.
    I had the opportunity to visit and see firsthand, near 
Muzaffarabad, the earthquake recovery and relief efforts--the 
U.S. Marines working with the Pakistani military. And I was 
very, very impressed by the talented military--the very 
professional conduct that they had.
    Additionally, very sadly, I had breakfast at the home of 
Benazir Bhutto a month and a day prior to her murder. And so, 
again, I am just so concerned for the country.
    And, General, you have indicated that we need a long-term 
strategic partnership. How can that best be shown to the people 
of Pakistan--that we have a long-term interest in their 
success?
    General Barno. We touched on a few points to that, I think, 
earlier, but I think it has to be a--not simply a military 
relationship. And it can't be a relationship that is focused on 
the crisis of the moment, which is terrorism in the tribal 
areas of Pakistan, on the border areas, with Afghanistan.
    It has to be a serious--looking across both governments, 
and how both governments and the United States, and in 
Pakistan, can find shared interest in the areas of trade and 
the area of economics, and the areas of justice, perhaps in 
border, perhaps in counter-narcotics.
    There is a huge range of common interests that we could 
bridge between the two governments of Pakistan and the United 
States, to develop some type of a framework relationship that 
really projects for the people of Pakistan that we are going to 
work with them in multi-dimensions--not just a security 
dimension, but in a multiple of dimensions to connect these two 
nations together over the next 20 or 30 years.
    That just simply doesn't exist today. And everything is 
focused on this morning's newspaper headlines. So I think that 
there would be a lot of utility in having enterprise that looks 
at how we can pull that together into--whether it is a formal 
agreement, or simply, you know, a series of meetings that 
begins to bridge the two nations together. I think we would 
make a lot of money by doing that.
    Mr. Wilson. And Mr. Nawaz, I appreciate you pointing out 
that Pakistan is an advanced country, with 30 million persons 
in the middle class. This is not at all comparable to 
Afghanistan. And in my visits there, the people I have met 
are--it has just been very hopeful.
    And the young students--I mean, it is just a positive 
experience.
    I have concluded four years as the co-chair of the India 
Caucus. I made it very clear that it is my view the country 
that benefits most from a stable Pakistan--and you have alluded 
to this--is India.
    And, then, as I have tried to work with the people of 
India--one of the biggest criticisms is they feel like the 
United States has been a strong ally and supporter of Pakistan 
for 60 years. So there is a disconnect there.
    But how can we promote the relationship between India and 
Pakistan?
    Mr. Nawaz. I think the United States, obviously, now, is a 
friend of India. And, for the first time in six decades, of 
life of India, for the first time, we actually had Ambassador 
Holbrooke pronounce India one of the major allies with the 
United States on his last visit.
    At the same time, the United States is a major ally of 
Pakistan. And these are not mutually exclusive.
    Mr. Wilson. Yes.
    Mr. Nawaz. So it is very critical for the United States, 
now, to use this leverage on both sides of the India-Pakistan 
border to help them see the possibilities that exist for peace, 
rather than war, in that region.
    In effect, the U.S. has to take the lead, now, in helping 
wage peace in the region, rather than siding with one country 
against the other. And, in that, the economic relationships 
between the countries of the region--and not just India and 
Pakistan, but, as I said earlier, with Central Asia and 
Afghanistan--the whole region has a network that needs to be 
established, in which U.S. firms can play a huge role, because 
many of them already have plans on the books for setting up 
pipelines, for setting up rail links or roadways and so on.
    All this can be done to pull these countries together, 
which would make it impossible for them to go to war.
    Mr. Wilson. And I appreciate your point. And I would even 
extend it. I have been to Western Siberia, in Novosibirsk, 
Chelyabinsk.
    It would seem like, to me--and through the ``Stans,'' too--
that that whole region of Central Asia should be doing very 
well economically, socially, and--so I appreciate your positive 
view, and--however, I can be hopeful. I see great hope 
throughout the region. So I now yield back the balance of my 
time.
    Mr. Taylor. The chair thanks the gentleman from South 
Carolina.
    We now recognize the gentleman from Maryland, Mr. Bartlett, 
for five minutes.
    Mr. Bartlett. Thank you very much.
    I was here for your very illuminating testimony. Thank you 
very much.
    I had to be gone for part of the question-and-answer 
period. Maybe it is the scientist in me, but when I am dealing 
with options, I am always more comfortable when I have some 
probabilities associated with those options.
    And so, if you would humor me, and each take a piece of 
paper and write down the three potential outcomes that the 
general mentioned--a failed state; a status quo or stalemate, 
for number two; and gradual improvement, for number three. And 
so that you are not influenced by others' prognostications, if 
you would write down some percentages there that add up to 
100--what probability do you think that it would be a failed 
state? What probability do you think that it will simply 
continue the status quo, or a stalemate? And what probability 
do you think that there will be gradual improvement?
    General, do you have your prognostications?
    General Barno. I actually did this before we started, 
because I thought I might get that question. It is a very 
interesting question, and, of course, one that we can't really 
give good answers to.
    Here is the way I would key it up, Congressman. I said: 
Failed state, 15 percent--one-five percent----
    Mr. Bartlett. Okay.
    General Barno [continuing]. Stalemate, six-zero--60 
percent----
    Mr. Bartlett. Okay.
    General Barno [continuing]. And gradual improvement, 25 
percent. And I really hope those add up to 100. I didn't do my 
math check, here, so----
    Mr. Bartlett. They do.
    Okay.
    Dr. Kilcullen.
    Dr. Kilcullen. I am afraid I have a slightly different 
view. I am making the assumption that there is no change in 
U.S. policy, and there is no change in the attitude of the 
Pakistani state. On that assumption: 75 percent, failed state; 
0 percent, status quo--things simply cannot go on as they are; 
25 percent, turnaround. That is on the assumption that we don't 
change anything.
    Mr. Bartlett. Very interesting, thank you.
    And Mr. Nawaz.
    Mr. Nawaz. In my book, the failed state would be 15 percent 
probability. The stalemate, or what I would call ``muddling 
through,'' would be 55 percent. And gradual improvement, 30 
percent.
    Mr. Bartlett. Thank you all very much. That is very 
helpful.
    I kind of have the feeling that unless we get halfway 
through number three--and there is a fairly low probability 
that we are going to get halfway through number three, if your 
prognostications are correct--that what we are doing in 
Afghanistan is the ultimate exercise in futility.
    Even if we are able to do there what no one else has ever 
done--Alexander the Great failed, the British Empire failed, 
the Soviet Empire failed--and even if we are able to do what no 
one else has ever done, it will amount to nothing, because the 
bad guys will simply go to Pakistan, unless we are at least 
halfway through number three, gradual improvement.
    Is that not true?
    Dr. Kilcullen. I think----
    General Barno. Go ahead, David.
    Dr. Kilcullen. Well, I think there is quite a good chance 
that we will do better in Afghanistan, because we do have 
something that none of those other empires----
    Mr. Bartlett. But, sir, even if we are completely 
successful--I am allowing that we will be completely successful 
in Afghanistan, and do what no one else has ever done. Even so, 
I don't think we will accomplish anything, because our goal is 
to get rid of the bad guys. And the bad guys will simply go to 
Pakistan, unless we get halfway through number three. And you, 
collectively, believe there is a fairly low probability we are 
going to get halfway through number three.
    Dr. Kilcullen. If you articulate the sole goal as ``dealing 
with the bad guys,'' then I would agree with you. But that is 
not our sole goal in Afghanistan and Pakistan.
    The fact that we have treated that as our sole goal is one 
of the problems that we have had since 2001.
    General Barno. I think I would agree with that. And I would 
say that the growth of success in both of those states 
eventually marginalizes the bad guys.
    I watched, during my time in Afghanistan, increasingly, for 
a period of time, the Taliban becoming more and more irrelevant 
to the people of Afghanistan. No one had any interest in being 
in the Taliban, after the Afghan presidential election. The 
economy was doing better, security was improving significantly. 
No one had any interest in that outcome. But that is certainly 
not the case today.
    So I think if we can set those conditions so that the--
becoming a terrorist and insurgent is an irrelevant long-term 
goal for any reasonable Pakistani of Afghan, then we have 
established some enduring prospects for success.
    Mr. Nawaz. Congressman, I would choose an analogy from 
economics. After all, I spent 31 years at the International 
Monetary Fund. And this is called the J-curve hypothesis, which 
is when things grow worse before they start getting better.
    And so what may appear to be a 70 percent probability, in 
David's view, may be those kind of exogenous shocks that will 
turn the population and the government and the leadership of 
Pakistan around, into concentrating their efforts so that they 
can, then, use the resources of the country, the inherent 
strengths of the society, and the institutions that exist, to 
pull the country out of the hole that it seems to be heading 
into.
    Mr. Bartlett. I hope, sir, that that is the outcome. My 
hopes and my expectations are frequently different. In this 
case, they are different.
    Thank you very much, Mr. Chairman.
    Mr. Taylor. The chair thanks the gentleman from Maryland.
    Gentlemen, I very much have found this very enlightening.
    On the near term--and I forgot which of you mentioned the 
large number of casualties that the steam-ship companies that 
the American military has contracted with to transport goods 
through Pakistan, going to Afghanistan--it is my understanding, 
about 130 drivers for one of the contractors have been killed, 
about 15 drivers for another contractor.
    Entire convoys have been hijacked, and entire convoys have 
been destroyed, just transiting Pakistan.
    It is my understanding that we will get sending about 130 
to 150 trailer-equivalent units a day, just to re-supply the 
troops we have now. Safe to assume that will be increased by at 
least half again, with the additional troops on their way to 
Afghanistan.
    I say all this, and that you all have done, I think, a 
really good job of telling us some of the things we need to be 
doing, and what you expect could happen--hopefully, favorably.
    My question to you, given the immediate escalating of 
American troops, and the need to re-supply them, is: What is 
the probability in your minds that, during the next three years 
and nine months that President Obama has been elected by the 
American people to serve--that the Pakistani government, either 
bowing to pressure from the Islamic fundamentalists, or because 
of a change in their attitude themselves, within the internal 
government--what are the chances that they deny passage through 
Pakistan of goods bound for the American troops in Afghanistan, 
in the next three years, nine months----
    General Barno. I think my perspective would be, unless 
there is a state failure in Pakistan, that that is--that won't 
happen. And, again, we are--my handicapping of that was in the 
15 percent range. So I think as long as the state of Pakistan 
remains functioning and remains, you know, in, essentially, 
alliance with the U.S., and we are mutually supporting each 
other's goals and objectives--if those lines of communications 
can stay open.
    As you know, there are also a series of other possible 
lines--the Northern Distribution Network----
    Mr. Taylor. None of which are very pretty options.
    General Barno. So, at least there is some redundancy in 
that. But I don't think there is an extraordinarily high risk 
to the Pakistan supply lines, unless there is a major change in 
the state situation there.
    Mr. Taylor. Doctor.
    Dr. Kilcullen. I would just say it depends on what you are 
actually talking about.
    Those supply lines were cut and closed six times last year 
already, and----
    Mr. Taylor. I would talk about a hard closure.
    Dr. Kilcullen. As in ``permanent closure''?
    Mr. Taylor. Yes.
    Dr. Kilcullen. I think that is reasonably low, unless the 
Pakistani state loses control of that main north-south route 
from Karachi, up into Peshawar, and west, to the Khyber Pass.
    It is very, very hard to keep that open permanently. But 
having it closed permanently, I think, is a reasonably low 
possibility.
    But I don't share the positive prognosis of, you know, a 
low chance of state failure. I actually think, unless we turn 
around the policies that we have in place, and unless the 
Pakistani military, rapidly, gets a lot better at doing this, 
we are going to see an increasing loss of control.
    So, over three years and nine months, you know, that 
probability drops away.
    Mr. Taylor. Mister--I hope I would say this properly--Mr. 
Nawaz?
    Mr. Nawaz. Yes, you did, sir.
    I agree that the probability is low. I don't agree that 
even, given the further attacks within the country, as well as 
the challenges faced by the military--that the military, as an 
institution, would collapse to the extent that it would allow a 
permanent stoppage to this.
    However, there is always a possibility of a serious 
breakdown of relationships between governments, in the U.S., 
and in Pakistan. And if that were to occur, for whatever 
reason, then, of course, we would face this possibility.
    I have, unfortunately, like many of my colleagues--have not 
been able to get clearance to go to Pakistan. I have flown over 
it a number of times going to Afghanistan.
    I am amazed that on the western side of the country, it 
just strikes me as amazingly sparsely populated.
    And, again, I am going to open up to you, General. Would 
there be any value to trying to route the traffic through the 
western part of the country, where there are fewer people and, 
therefore, fewer people to shoot at you?
    Would there be any value of trying to work with the 
Pakistani government to establish such a route, or would that 
be--how would that be perceived, and is it even necessary?
    General Barno. To clarify, Congressman, are you thinking 
through Balochistan, or toward the Iranian border?
    Mr. Taylor. Over closer to----
    General Barno. Well, there is obviously a route up through 
Karachi, through Spin Boldak, that comes out of Kandahar, and 
then could come in that way. And there is some traffic there. 
But my understanding is the majority of the traffic does come 
through the Khyber Pass.
    Mr. Taylor. Right.
    General Barno. So my sense would be that it--that is an 
excellent second option to have, in that route coming up 
through the south. But that is also an area where most of the 
military analysts are saying--and I agree--is the center of 
gravity of the fight right now--the southern portion of 
Afghanistan, on the Afghan side of the border.
    So there is no particular good answer on this, in terms of 
security for our route right now, I don't think.
    Mr. Taylor. Is there anything--and, again, I am asking this 
in the form of a question: Is there anything from the Pakistani 
government's point of view that would make that beneficial for 
them?
    Mr. Nawaz. We have talked about the port of Gwadar. It was 
also featured in a long article in the Atlantic Monthly this 
month. And that was one of the ideas that I had presented, 
which was to have a very heavy investment in infrastructure 
development, linking Gwadar to Afghanistan and, potentially, to 
Central Asia.
    That kind of investment would yield immediate benefit in 
providing employment for people in Balochistan, because they 
have very little chance of employment otherwise. And you could 
also bring into safeguarding that, because of the benefits of 
transit fees that--and other economic benefits arising from a 
road and a rail link that could link up to the Afghan border 
first, and then, perhaps, beyond that.
    Mr. Taylor. Do you think a significant number of Pakistani 
individuals would think that is for the better for their 
country?
    Mr. Nawaz. If you were to give ownership to the provincial 
population, yes. If it were done as a central, federally 
controlled enterprise, and contractors brought from outside, 
then, no.
    Mr. Taylor. Okay.
    Would any of you--either gentleman--care to comment on 
that?
    Dr. Kilcullen. I agree with that.
    Mr. Taylor. Okay.
    The chair now recognizes the gentleman from New York, the 
ranking member, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    I am going to be very brief. These folks have been 
extraordinarily patient. And I should preface my comment by 
saying that, in most ways, I am a supporter of the 
Administration's recently released plan for Pakistan and 
Afghanistan.
    I do think there are some concerns with respect to 
questions--vacuums--that exist in it, that can be filled in 
less-than-helpful ways. But, nevertheless, I do think that, to 
his credit, the President and his advisors have laid out a plan 
forward.
    As we have heard here today, obviously, there are other 
things we can and can, perhaps, should be considering.
    But, nevertheless, I have to ask, Mr. Nawaz: This week on 
National Public Radio, you gave a very interesting interview 
regarding the Administration's recent engagement in Pakistan.
    I am going to read your quote. And I just would be very 
interested in your refinement of these very--I guess it is fair 
to say--strong words.
    And I quote, ``This is probably the worst-ever visit by an 
American team. It was a complete disaster. And if this is how 
you want to win friends, I just wonder how you want to create 
enemies.'' And that is the end of the quote.
    Can you help those of us who, obviously, we're not privy to 
the details of that visit--what so concerns you about what went 
on?
    Mr. Nawaz. Yes, sir. To paraphrase Orden, ``Words have no 
words that are out of context.'' The discussion was about the 
lead-up to the visit. This was a very critical visit, following 
the release of the bill in the House, as well as the release of 
the strategy.
    And so there were tremendous expectations. And I began by 
saying that the heart was in the right place, meaning that the 
United States was saying and planning on doing a lot of very 
good things for Pakistan.
    Unfortunately, the public message that was conveyed before 
the visit, through newspaper articles and leaks, created a very 
serious public backlash within Pakistan.
    So it ended up overshadowing whatever positive results may 
have emerged in the closed-door meetings. And so the public 
commentary in Pakistan, as well as private feedback that I 
received, and many others received, was that, you know, ``The 
U.S. is only focused on destroying the Pakistan army, and 
destroying the ISI.'' And these are very powerful assets of 
Pakistan.
    It just totally took away from the positive message that 
was contained in the strategy, as well as the many great 
attributes of the bill that is now being looked at by Congress.
    So it was in that context that the opportunity was missed. 
And I, in fact, compared it to the visit of Prime Minister 
Nehru, to the United States, in the 1950s, which was also, you 
know--it was preceded by tremendous expectation. And it didn't 
come through. And then, the result was many years of 
estrangement.
    And as a supporter of U.S.-Pakistan friendship, as a 
supporter of the President's new approach, I feel that somehow 
that message got lost.
    Mr. McHugh. Thank you, sir.
    Unless one of our other two panelists want to comment on 
that question, I would yield back, with a final word of deep 
appreciation to our three distinguished guests, both for their 
endurance, but more importantly, for their perspective and 
expertise.
    And thank you, gentlemen, for being here.
    Mr. Taylor. The chair thanks the gentleman.
    Gentlemen, it is the tradition of Chairman Skelton to limit 
our witnesses to five minutes. That was in an effort to give 
every member an opportunity to ask their questions. Since we 
are still shy of the appointed 4:30 hour that we said we would 
adjourn, if there is anything that any of you would like to say 
for the record, before we adjourn, I would welcome your 
thoughts.
    General Barno. I think the only thing I would add would be 
that, I think, in the dialogue today, it is clear to everyone 
in this room that this is a very serious problem--perhaps, the 
most serious security problem that the U.S. is facing over the 
next several years.
    If things go awry, if any of these perspectives on worst-
case scenarios begin to accelerate, and become more probable, 
then there is a great risk that we are going to have an 
extraordinarily dangerous situation in this part of the world.
    And I think, based upon that alone, that the amount of 
attention that the U.S. is giving this across the government 
right now, needs to be extraordinarily high--that this could 
become a crisis very quickly, and I think that, even though we 
are--and I have personally been highly engaged in the 
Afghanistan side of the--the drawn-line aspect here--this 
particular challenge with Pakistan could escalate into an 
extraordinarily serious crisis in a very short period of time.
    And I think it deserves very, very serious attention. And I 
am seeing indications that it is certainly getting that right 
now.
    Mr. Taylor. Thank you, General.
    Doctor.
    Dr. Kilcullen. Nothing to really add, sir. But I just want 
to summarize, I guess, briefly--my main points.
    I think we need to develop, rapidly, a sense of urgency. I 
am very encouraged by this hearing, and I think that is a good 
sign. We need to put somebody in charge of Pakistan policy, one 
person, and give them the right staff and authorities to 
actually come up with a comprehensive plan.
    And that may seem like an obvious statement, but we haven't 
yet done that.
    We need to hold the Pakistani military and intelligence 
service accountable. And I think benchmarks are part of that. 
But they are not the full story, because we don't want to get 
into that pay-for-performance approach.
    We need to dramatically increase support to policing and 
rule of law in Pakistan, including civil authorities. And, 
finally, we need to call off the drones.
    Mr. Taylor. Thank you very much, sir.
    Mr. Nawaz.
    Mr. Nawaz. Yes, sir.
    I would reiterate the issue of partnership; that it is very 
critical that there be discussions; that if there are 
differences, that they be resolved privately; and that Pakistan 
understand that it will receive assistance; that it must be 
prepared to do its bit to make sure that it has policies and 
plans that are not only workable, but that it will follow 
through on, so that there are results that it will achieve for 
its own purposes, and not solely because the U.S. wants it to, 
or the U.S. Congress is looking for those results.
    I think this is part of the critical friendship between the 
two countries. And in the long run, the more the U.S. is seen 
as an ally of the people of Pakistan, and not allied with any 
single group or individual, the better it will be for the 
relationship. Thank you, sir.
    Mr. Taylor. Again, we want to thank all of our witnesses. I 
think you all have done a really great job this afternoon. We 
appreciate that you have traveled some distance to be here.
    The committee now stands adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]



=======================================================================



                            A P P E N D I X

                             April 23, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 23, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 52666.001
    
    [GRAPHIC] [TIFF OMITTED] 52666.002
    
    [GRAPHIC] [TIFF OMITTED] 52666.003
    
    [GRAPHIC] [TIFF OMITTED] 52666.004
    
    [GRAPHIC] [TIFF OMITTED] 52666.005
    
    [GRAPHIC] [TIFF OMITTED] 52666.006
    
    [GRAPHIC] [TIFF OMITTED] 52666.007
    
    [GRAPHIC] [TIFF OMITTED] 52666.008
    
    [GRAPHIC] [TIFF OMITTED] 52666.009
    
    [GRAPHIC] [TIFF OMITTED] 52666.010
    
    [GRAPHIC] [TIFF OMITTED] 52666.011
    
    [GRAPHIC] [TIFF OMITTED] 52666.012
    
    [GRAPHIC] [TIFF OMITTED] 52666.013
    
    [GRAPHIC] [TIFF OMITTED] 52666.014
    
    [GRAPHIC] [TIFF OMITTED] 52666.015
    
    [GRAPHIC] [TIFF OMITTED] 52666.016
    
    [GRAPHIC] [TIFF OMITTED] 52666.017
    
    [GRAPHIC] [TIFF OMITTED] 52666.018
    
    [GRAPHIC] [TIFF OMITTED] 52666.019
    
                                  <all>

</pre></body></html>
